No. 20A4
IN THE

Supreme Court of the United States
T.J. WATSON, WARDEN OF USP TERRE HAUTE,
UNITED STATES OF AMERICA,
Applicants,
v.
WESLEY PURKEY,
Respondent.

SUPPLEMENTAL BRIEF IN OPPOSITION
TO APPLICATION TO VACATE STAY OF EXECUTION

Less than 36 hours after the Seventh Circuit issued a brief stay of Mr. Purkey’s
execution, the Government filed a petition for rehearing in that court seeking to
immediately vacate the stay. Then, rather than wait for the Seventh Circuit to decide its
petition, the Government filed another emergency application with this Court on
Saturday, July 11, asking this Court to vacate the court of appeals’ stay, primarily on the
ground that the panel had not found likelihood of success on the merits, as required by
Nken v. Holder, 556 U.S. 418 (2009). Mr. Purkey opposed that application on July 12.
On July 13, while the Government’s emergency application to this Court was
pending, the Seventh Circuit panel issued an order denying the Government’s request to
vacate the stay. The panel clarified that, in granting the stay, it “concluded that Purkey
has made a strong argument to the effect that, under the Supreme Court’s decisions in
Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013), a habeas

corpus petitioner who has never been able to test the effectiveness of his counsel under
the Sixth Amendment can overcome his procedural default in failing to do so in his first
and only motion under section 2255” and that, for that reason, he “would be entitled to a
hearing on the merits using the vehicle of section 2241.” Supp. App. 3. Accordingly, the
panel explained, “we deem Purkey’s chances of success on this point to be strong enough
to satisfy Nken’s first requirement[.]” Id. The panel reiterated that it found “serious”
the argument that, if Mr. Purkey cannot press his substantial claims of ineffective
assistance of trial counsel in a § 2241 petition, “he could literally go to his death without
ever having the opportunity first to demonstrate that his Sixth Amendment rights were
violated, and … if he succeeds, to have a new trial untainted by that failing,” explaining
that “all defendants, including capital defendants, have a right to constitutionally
effective counsel” and “[t]he information proffered in Purkey’s section 2241 petition gives
us concern that Purkey never received such counsel.” Supp. App. 1-2.
With this in mind, the panel stated again that a “brief stay is necessary to complete
our proceedings in an orderly way,” including the resolution of a forthcoming petition for
panel or en banc rehearing from Mr. Purkey. Supp. App. 3. Although the stay “would
expire at the earliest … on Monday, August 24” (which the panel recognized is “a few
weeks after July 15, the government’s desired execution date”), the panel noted that the
Government had neither provided a “reason why we should fore-shorten the time” for
proceedings to conclude in the Seventh Circuit, nor established “that it would experience
difficulty in re‐scheduling Purkey’s execution date for a time after our court has
completed its review.” Supp. App. 2-3.

-2-

The panel’s order clarifies what was already clear—that the Seventh Circuit did
not abuse its discretion in entering a brief stay of Mr. Purkey’s execution. None of the
Government’s arguments establishes otherwise.
The Government asserts that en banc rehearing is unlikely because “the panel has
never suggested that its decision in this case was controlled by prior circuit precedent
with which it disagreed.” Supp. Br. 3. That misunderstands both the standard for en
banc review and the state of the law in the Seventh Circuit. Rehearing en banc is
warranted where it “is necessary to secure or maintain uniformity of the court’s
decisions” or “the proceeding involves a question of exceptional importance.” Fed. R.
App. P. 35. This case easily meets that standard. As explained (Stay Opp. 13-15), in
addition to conflicting with Martinez and Trevino, the panel’s decision conflicts with the
Seventh Circuit’s own decision in Ramirez v. United States, 799 F.3d 845 (7th Cir. 2015).
The full Seventh Circuit is likely to grant rehearing and reverse to correct this
inconsistency in its case law.

This case also presents a question of exceptional

importance—now that the United States has begun scheduling executions for the first
time in nearly two decades, the question of whether § 2241 is available for federal capital
prisoners in Mr. Purkey’s position is likely to recur. This question is of paramount
importance in the Seventh Circuit, where nearly all federal death row inmates are
housed, and thus where nearly all such § 2241 petitions must be brought. For these
reasons, en banc review and reversal is particularly likely, as the panel implicitly
recognized in clarifying its stay order. Contrary to the Government’s regurgitated
assertion (Supp Br. 3), that other panels of the Seventh Circuit, who are bound by the

-3-

panel’s ruling in this case, have denied identical claims, is neither surprising nor
suggestive of the en banc court’s likelihood of reversal. See Stay Opp. 14 n.4.
For much the same reasons, this Court is likely to grant certiorari and reverse.
See Stay Opp. 9-13. In Martinez and Trevino, this Court held that where a state prisoner
receives ineffective assistance at his initial-review collateral proceeding, some further
opportunity for review of substantial claims of ineffective assistance of trial counsel must
be made available. Whether and by what procedural mechanism federal capital prisoners
who are in the analogous position of the state prisoners in Martinez and Trevino—i.e.,
whose substantial claims of ineffective assistance of trial counsel were defaulted by
ineffective § 2255 counsel—may press such claims, is an important question that merits
this Court’s review. In the absence of guidance from this Court, the courts of appeals
have reached divergent answers to this important question. See Ramirez, 799 F.3d at
852-854; United States v. Lee, 792 F.3d 1021, 1024 (8th Cir. 2015). The Seventh’s Circuit’s
decision that § 2241 is not available under these circumstances not only conflicts with
Martinez and Trevino and deepens this circuit split, but also creates an unjustified
distinction between state and federal prisoners that uniquely disfavors the latter. See
Supp. App. 3 (noting that “there are compelling reasons to extend existing precedents”).
For these reasons, reversal by this Court is also likely.
At bottom, the Government’s argument is that if a party is unsuccessful before a
lower court, that court can never stay its ruling, because that party will not be able to
establish likelihood of success on the merits before that court. As the panel recognized,
Supp. App. 3, that cannot be the standard. Rather, this Court’s precedents leave open
that where the movant makes a strong showing of likelihood of success on appeal, and the

-4-

movant makes a strong showing on all of the other stay factors, a stay may be entered.
The Seventh Circuit panel rightly found that this was such a case.
The Government’s emergency application should be denied.
Respectfully submitted.
/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
Counsel of Record
STEPHANIE SIMON
RYAN CHABOT
JULIA C. PILCER
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

REBECCA E. WOODMAN
ATTORNEY AT LAW, L.C.
1263 W. 72nd Terrace
Kansas City, MO 64114
(785) 979-3672
MICHELLE M. LAW
ASSISTANT FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF MISSOURI
901 St. Louis Street, Suite 801
Springfield, MO 65806
(417) 873-9022
July 2020

-5-

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that on
this 13th day of July, 2020, I caused all parties requiring service in this matter to be
served with three copies of the accompanying Supplemental Brief in Opposition to
Application to Vacate Stay of Execution by overnight courier to the address below:
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

